David B. Salmons

P artner
+1.202.373.6283
dav id.salmons@morganlew is.com

August 11, 2020
BY ELECTRONIC FILING AND ELECTRONIC MAIL
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Children’s Hosp. Ass’n of Tex. v. Azar
No. 19-1203

Dear Mr. Harris:
In accordance with the Court’s Order of March 19, 2020, Petitioners respectfully
request that distribution of their certiorari materials in this case be delayed for
7 days, from August 26, 2020 to September 2, 2020.
Because of difficulties relating to COVID-19, petitioners need additional time to
file a reply in support of their petition for a writ of certiorari. The pandemic has
displaced petitioners’ counsel from their offices and complicated coordination
among counsel and the multiple petitioners, which, as hospitals, have been
particularly affected by COVID-19.
Counsel for respondents advises that respondents do not oppose this request,
which will not affect the conference at which the petition will be considered.
Sincerely,
/s/ David B. Salmons
DAV ID B. SALMONS
cc: Jeffrey B. Wall
Mark B. Stern
Samantha L. Chaifetz

Morgan, Lewis & Bockius LLP
1111 P ennsy lv ania A v enue, N W
Washington, DC 20004
U nited S tates

+1.202.739.3000
+1.202.739.3001

